<html>
<title> - ORGANIZATIONAL MEETING</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                         ORGANIZATIONAL MEETING

=======================================================================

                                MEETING

                               before the

                      COMMITTEE ON SMALL BUSINESS

                             UNITED STATES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MEETING HELD

                            JANUARY 23, 2013

                               __________


                                [GRAPHIC] [TIFF OMITTED] TONGRESS.#13
                               

            Small Business Committee Document Number 113-001
              Available via the GPO Website: www.fdsys.gov



                  U.S. GOVERNMENT PRINTING OFFICE
78-456                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1e796e715e7d6b6d6a767b726e307d717330">[email&#160;protected]</a>  


                   HOUSE COMMITTEE ON SMALL BUSINESS

                     SAM GRAVES, Missouri, Chairman
                           STEVE CHABOT, Ohio
                            STEVE KING, Iowa
                         MIKE COFFMAN, Colorado
                      BLAINE LUETKEMEYER, Missouri
                     MICK MULVANEY, South Carolina
                         SCOTT TIPTON, Colorado
                   JAIME HERRERA BEUTLER, Washington
                        RICHARD HANNA, New York
                         TIM HUELSKAMP, Kansas
                       DAVID SCHWEIKERT, Arizona
                       KERRY BENTIVOLIO, Michigan
                        CHRIS COLLINS, New York
                        TOM RICE, South Carolina

               NYDIA VELAZQUEZ, New York, Ranking Member
                        YVETTE CLARKE, New York
                          JUDY CHU, California
                        JANICE HAHN, California
                     DONALD PAYNE, Jr., New Jersey
                          GRACE MENG, New York
                        BRAD SCHNEIDER, Illinois
                          RON BARBER, Arizona
                    ANN McLANE KUSTER, New Hampshire
                        PATRICK MURPHY, Florida

                      Lori Salley, Staff Director
                    Paul Sass, Deputy Staff Director
                      Barry Pineles, Chief Counsel
                  Michael Day, Minority Staff Director


                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page

Hon. Sam Graves..................................................     1
Hon. Nydia Velazquez.............................................     2

                                APPENDIX

Committee Oversight Plan for the 113th Congress..................     7
Committee Rules and Procedures for the 113th Congress............    14


                         ORGANIZATIONAL MEETING

                              ----------                              


                      WEDNESDAY, JANUARY 23, 2013

                          House of Representatives,
                               Committee on Small Business,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 1:40 p.m., in Room 
2360, Rayburn House Office Building, Hon. Sam Graves [Chairman 
of the Committee] presiding.
    Present: Representatives Graves, Chabot, Coffman, 
Luetkemeyer, Mulvaney, Tipton, Hanna, Huelskamp, Schweikert, 
Bentivolio, Collins, Rice, Velazquez, Clarke, Payne, Meng, 
Schneider, and Murphy.
    Chairman Graves. We have a quorum, so we will call this 
hearing to order.
    I would like to welcome everybody to the Small Business 
Committee organizational meeting. And I want to welcome all 
returning Members and some new Members, obviously, of the 
Committee. I know you are very excited to dive in and get to 
work.
    Before introducing the Republican Members, I would like to 
take a moment to thank Ranking Member Velazquez for her 
dedication and hard work, obviously, on behalf of all small 
businesses.
    Ranking Member Velazquez, I want to continue that cordial 
working environment that we established in the 112th Congress 
and before that, for that matter, too.
    There are five new Republican Members on the committee and 
one former member who has obviously seen the light and come 
back to us, and I would like to introduce those Members.
    Mr. Huelskamp is a rancher from Kansas with a Ph.D. from 
American University.
    We have Mr. Schweikert, who has a long history of public 
service in Arizona, in addition to being a small-business 
owner.
    Our returning member that I mentioned earlier is a fellow 
Missourian, Mr. Luetkemeyer, who is a farmer, and he has been 
in the banking and insurance industry.
    Three of the new Members are freshmen: Mr. Bentivolio, a 
rancher from Michigan; Mr. Collins, who is a small-business 
owner and Erie County executive; and Mr. Rice, who started his 
own tax law firm in Myrtle Beach and served on the Horry County 
Council.
    And I expect that the experience that we have in a lot of 
our Members as small-business owners is going to be very 
significant and add a lot of value to the committee as we work 
to develop policies which will enable small businesses to 
expand and create jobs.
    I also would like to welcome back the Members who served on 
the committee during the 112th Congress: Mr. Chabot from Ohio; 
Mr. King from Iowa; Mr. Coffman from Colorado; Mr. Mulvaney 
from South Carolina; Mr. Tipton from Colorado; Ms. Herrera 
Beutler from Washington; and Mr. Hanna from New York.
    And I now yield to Ranking Member Velazquez for 
introduction of her Members.
    Ms. Velazquez. Thank you, Mr. Chairman.
    And I just would like to thank you for the work that we 
have done in the past. I am looking forward to work with you. 
As I have mentioned, and I have said it repeatedly, there is no 
Republican or Democratic approach when it comes to dealing with 
small-business needs. And I am looking forward to having a 
productive legislative session.
    We have, Mr. Chairman, an exceptional roster of Democratic 
Members joining the committee this Congress. They hail from 
across the country and bring a diverse set of experiences that 
will prove helpful as the committee moves forward.
    Returning Members such as Representative Yvette Clarke from 
New York. She is a fellow New Yorker and Brooklyn native, and I 
am proud to have her returning to the committee. In previous 
Congresses, she has been an important voice on the committee 
for female and minority entrepreneurs.
    Also returning, Ms. Judy Chu from California. Last 
Congress, she served as the ranking Democrat of the Contracting 
and Workforce Subcommittee. In that role, she has helped 
spearhead many of the Committee's efforts to improve the 
procurement process for small businesses.
    Representative Janice Hahn from California, also returning 
to the committee. She has been a champion of green technology. 
She has already been an important voice on the Committee, and I 
am pleased to welcome her back.
    New Members: Representative Donald Payne, Jr., from New 
Jersey. Mr. Payne comes from Newark, New Jersey. This is his 
first term on the Committee. As a former city council member, I 
am sure he has been involved in local economic development 
issues, and I look forward to hearing about his experiences.
    Ms. Grace Meng from New York, our next addition to the 
Committee, is not only coming from New York but she is a dear 
friend. Grace Meng joins us from New York's Sixth Congressional 
District, which is next to my district and located in Queens. 
While in the State Assembly, Ms. Meng made helping small-
business owners achieve their American dream a top priority, 
and I am pleased that she is joining us.
    Mr. Brad Schneider from Illinois joins us, from outside 
Chicago, Illinois. As someone who previously consulted for 
family-owned businesses, I am sure that he will be an asset to 
the Committee, and I look forward to hearing his views.
    Also joining us, Representative Ron Barber from Arizona. He 
comes from Tucson, Arizona. He himself is a small-business 
owner. Together, he and his wife run Toy Traders/Stork's Nest, 
which specializes in selling and trading used toys. I am sure 
his real work experience will benefit the Committee.
    And we have Representative Ann McLane Kuster from New 
Hampshire. Like many Committee Members, she, too, has a 
background starting and running her own business.
    And joining us also is Mr. Patrick Murphy from Florida. 
Having spent time both in the accounting field and in running 
his family's construction business, I am certain he, too, will 
bring valuable experience to the Committee.
    I am pleased to see our returning Members of the Committee, 
as well as our new additions. Welcome to all of you, and I 
thank you for being here.
    Thank you, Mr. Chairman.
    Chairman Graves. Thank you, Ranking Member.
    Although we do have some policy differences, I firmly 
believe that there are many issues on which we are going to 
find a lot of common ground that is going to help small 
businesses by eliminating unnecessary programs and regulations, 
reducing redundancies in government, and, by far, ensuring that 
the Small Business Administration carries out policies that are 
dictated by Congress rather than devising its own that a lot of 
times are expensive, untested experiments to assist 
entrepreneurs.
    I believe that the rules package and the oversight plan 
under consideration today is going to lay the groundwork for 
finding those areas that we have in common while maintaining 
the highest levels of civility when we discuss our differences.
    And with that, I will yield to Ranking Member Velazquez for 
her opening statement.
    Ms. Velazquez. Thank you, Chairman Graves.
    As our Nation's economic recovery continues, this should be 
a busy and productive time for the Committee. We all know the 
vital role entrepreneurs play in the broader economy. In that 
regard, the work of this Committee in fostering an environment 
where small businesses can flourish is critical. Small 
businesses remain a cornerstone of our economy, and we will do 
whatever it takes to support them.
    Generating nearly two-thirds of net new jobs over the last 
15 years, small firms are the innovators and drivers of 
economic progress. During tough economic times, 
entrepreneurship is also important in giving dislocated workers 
opportunities to go into business for themselves and support 
their families.
    As we move forward, Mr. Chairman, we must make sure that 
small businesses are given the resources they need to prosper. 
And I look forward to continuing our efforts on behalf of small 
entrepreneurs during the 113th Congress.
    I yield back.
    Chairman Graves. We will move into the rules package. And I 
want to thank the minority and majority staffs for their hard 
work and cooperation in putting this package together. And I 
will highlight some of the changes in the rules that I think 
are going to provide some greater transparency.
    The rules package for the 112th Congress created a lot of 
transparency and protected the rights of the minority. And in 
order to maintain that transparency and cohesiveness, the rules 
package for the 113th Congress does not diverge from the rules 
that were used in the 112th Congress except for two ways: The 
rules reduce the number of testimony copies required by the 
witnesses. And the second thing is the size of the 
subcommittees is going to shrink to six Republican and four 
Democratic Members. However, we will still maintain the ability 
of any member to attend any subcommittee hearing as long as 
they just request to do so.
    And now I would recognize Ranking Member Velazquez for any 
remarks on the rules.
    Ms. Velazquez. Thank you, Mr. Chairman.
    Our committee rules determine how the committee operates. 
More importantly, by laying out a fair process, they help 
ensure that all points of view are considered.
    On this Committee, we have Members all across the country, 
representing our largest cities, rural areas, small towns, and 
everything in between. By taking an inclusive approach, the 
Committee benefits from hearing the different perspectives of 
all Members, regardless of party affiliation or ideology. 
Ultimately, this results in not just a fairer process, but also 
a better, stronger legislative product.
    A Committee that is run openly and fairly is a Committee 
that works. It is my hope that the rules we consider today will 
make that happen. Through their adoption, we will kick off the 
new Congress with a sense of comity and bipartisanship, which I 
hope to see sustained moving forward.
    I yield back.
    Chairman Graves. Are there any other Members who wish to be 
recognized for a statement on the rules package?
    Seeing none, the Committee now moves to consideration of 
the rules package.
    The clerk will please read the title of the document.
    The Clerk. ``Rules and Procedures Adopted by the Committee 
on Small Business, United States House of Representatives, 
113th Congress.''
    Chairman Graves. I would ask unanimous consent that the 
rules package be considered as read and open for amendment in 
its entirety.
    Does any Member seek recognition for the purpose of 
offering an amendment?
    Seeing none, the question is on adopting the rules.
    All those in favor, say ``aye.''
    All those opposed, ``no.''
    In the opinion of the chair, the ayes have it. The rules 
for the Small Business Committee in the 113th Congress are 
adopted. And the staff is authorized to make any technical and 
grammatical changes.
    Now we will move to the oversight plan, which is the second 
order of business. The plan represents the agenda for the 
committee during the 113th Congress. And I want to thank 
Ranking Member Velazquez again for her input into the oversight 
plan.
    I believe the plan adopted in the 112th Congress was 
comprehensive, and it enabled the Committee to focus on 
ensuring that the government does not hinder the ability of 
small businesses to create jobs. And as a result, the oversight 
plan prepared for the 113th Congress is similar to the one 
adopted in the 112th.
    Despite its overall similarity, there are a few key 
additions to the plan which we are considering today. The 
primary additions are oversight of legislation enacted in the 
112th Congress that affects small businesses, including changes 
to the Small Business Innovative Research Program, government 
contracting programs overseen by the SBA, and improved capital 
access for entrepreneurs associated with the implementation of 
the Jumpstart Our Business Startups Act.
    At this point, I would yield to Ranking Member Velazquez 
for any comments she might have.
    Ms. Velazquez. Well, I would like to commend the chair for 
producing a thoughtful document.
    The plan calls for greater oversight of the Small Business 
Administration and, in particular, its contracting and lending 
initiatives. In the past, this Committee has vigorously 
investigated fraud in the SBA's contracting programs. We know 
that when unscrupulous actors misuse these initiatives, 
legitimate small businesses lose out on Federal procurement 
contracting. In that regard, it is vital that the Committee 
continue exposing fraud, waste, and abuse in these initiatives.
    In recent years, the Committee has been vigilant in 
examining the SBA disaster assistance efforts. Thanks to our 
work, Congress passed and the SBA is implementing reforms to 
improve these programs. In the wake of Hurricane Sandy, I hope 
we keep a close eye on how well these programs function.
    The oversight plan delineates several programs for review 
and possible termination. Our past work has revealed that there 
are agency programs that are duplicative and an unwise use of 
taxpayers' dollars. It has always been a part of our core 
responsibility to carefully examine such instances and consider 
alternative options as well as their elimination. This is 
central to why I have always advocated for a 2-year 
authorization period for the Small Business Administration and 
its programs. Congress should be regularly seeking feedback 
from agencies and evaluating what is working and what is not.
    Collaborating with my colleagues on these matters and 
making the SBA more efficient must remain a top priority for 
this panel. This Committee has often served as a voice for 
entrepreneurs on Capitol Hill during these larger policy 
debates, and it is my hope that we will continue playing that 
vital role.
    Again, I commend the chairman on the development of this 
oversight plan. And I yield back.
    Chairman Graves. Thanks, Nydia.
    Are there any other Members who wish to be heard on the 
oversight plan?
    Seeing none, the Committee now moves for the consideration 
of the oversight plan.
    The clerk will please read the title of the document.
    The Clerk. ``Oversight Plan of the Committee on Small 
Business for the One Hundred Thirteenth Congress.''
    Chairman Graves. I would ask unanimous consent that the 
oversight plan be considered as read and open for amendment in 
its entirety.
    Does any Member seek recognition for the purpose of 
offering an amendment?
    Seeing no amendments, the question is on adopting the 
oversight package.
    All those in favor, say ``aye.''
    All those opposed, ``no.''
    In the opinion of the chair, the ayes have it. The 
oversight plan for the Small Business Committee in the 113th 
Congress is adopted. Committee staff is authorized to make any 
technical and grammatical changes to the plan.
    I would like to thank everybody for being here today and 
look forward to working with you.
    And with that, the meeting of the Committee on Small 
Business is adjourned.
    [Whereupon, at 1:53 p.m., the subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T8456A.001
    
    [GRAPHIC] [TIFF OMITTED] T8456A.002
    
    [GRAPHIC] [TIFF OMITTED] T8456A.003
    
    [GRAPHIC] [TIFF OMITTED] T8456A.004
    
    [GRAPHIC] [TIFF OMITTED] T8456A.005
    
    [GRAPHIC] [TIFF OMITTED] T8456A.006
    
    [GRAPHIC] [TIFF OMITTED] T8456A.007
    
    [GRAPHIC] [TIFF OMITTED] T8456A.008
    
    [GRAPHIC] [TIFF OMITTED] T8456A.009
    
    [GRAPHIC] [TIFF OMITTED] T8456A.010
    
    [GRAPHIC] [TIFF OMITTED] T8456A.011
    
    [GRAPHIC] [TIFF OMITTED] T8456A.012
    
    [GRAPHIC] [TIFF OMITTED] T8456A.013
    
    [GRAPHIC] [TIFF OMITTED] T8456A.014
    
    [GRAPHIC] [TIFF OMITTED] T8456A.015
    
    [GRAPHIC] [TIFF OMITTED] T8456A.016
    
    [GRAPHIC] [TIFF OMITTED] T8456A.017
    
    [GRAPHIC] [TIFF OMITTED] T8456A.018
    
    [GRAPHIC] [TIFF OMITTED] T8456A.019
    
    [GRAPHIC] [TIFF OMITTED] T8456A.020
    
    [GRAPHIC] [TIFF OMITTED] T8456A.021
    

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
